Office of Audits
Report No. AUD-11-005


The FDIC’s Franchise Marketing of
AmTrust Bank




                                    March 2011
                                          Executive Summary

                                          The FDIC’s Franchise Marketing of AmTrust
                                          Bank
                                                                                                Report No. AUD-11-005
                                                                                                           March 2011

Why We Did the Audit
A key aspect of the FDIC mission is to plan and effectively handle the resolution of failing FDIC-insured
institutions and to provide prompt, responsive, and efficient administration of failed financial institutions
to ensure that insured depositors are protected and to minimize losses to the Deposit Insurance Fund
(DIF). The FDIC Board of Directors has delegated significant authority to the Director, Division of
Resolutions and Receiverships (DRR), to conduct the activities required to resolve a failing institution in
the least costly manner and manage the resulting receivership. To minimize the negative financial effects
of failing and failed insured financial institutions on the DIF, DRR resolves institutions using the least
costly resolution method. Further, DRR is to resolve the troubled institution and sell assets in the manner
that results in the least cost and highest recovery to the FDIC’s insurance funds and other creditors of the
failed institution.

The FDIC’s Office of Inspector General (OIG) contracted with BDO USA, LLP (BDO) to conduct an
audit of the FDIC’s franchise marketing of AmTrust Bank, Cleveland, Ohio. The objective of this
performance audit was to assess the FDIC’s franchise marketing process for AmTrust Bank. We selected
AmTrust Bank for the audit because AmTrust was a large bank that failed toward the end of 2010, and the
FDIC received bids to acquire the bank from multiple institutions.

Background
On June 23, 2009, the FDIC Board of Directors approved a failing bank case for AmTrust Bank. On
December 4, 2009, the Office of Thrift Supervision closed AmTrust Bank, a federally chartered thrift
institution established in 1921, and appointed the FDIC receiver. At closing, AmTrust Bank had a total of
66 branches in Ohio, Florida, and Arizona; total assets of approximately $13.0 billion; and total deposits
of approximately $8.3 billion. Prior to the bank closing, the Director, DRR, approved a Purchase and
Assumption (P&A) Agreement, including loss sharing,1 with New York Community Bank (NYCB),
Westbury, New York, as the least costly transaction on November 25, 2009. The NYCB bid was
compared to the liquidation cost of AmTrust Bank as well as to 13 other bids to determine the least costly
resolution. The DRR analysis of the bids ranged from a $2.2 billion cost to the DIF to over $5 billion.

Under the P&A Agreement, NYCB assumed all of the deposits of AmTrust Bank and purchased, at a
discount, AmTrust Bank assets with a book value of about $9.2 billion. The P&A Agreement included a
loss-share transaction on approximately $6.3 billion of the $9.2 billion in assets purchased by NYCB. In
addition, the FDIC acquired a value appreciation instrument,2 valued at $10.7 million, and transferred to
NYCB all qualified financial contracts to which AmTrust Bank was a party. The FDIC estimated that the
costs of the NYCB acquisition to the DIF would be approximately $1.6 billion less than if the bank had
been liquidated, meaning that the FDIC makes a payout to all insured depositors and liquidates the assets
taken into receivership. The FDIC retained approximately $3.8 billion of assets, consisting mainly of
acquisition, development, and construction loans and non-performing loans for later disposition. The
FDIC estimated that the cost of AmTrust Bank’s failure to the DIF would be $2.2 billion.


1
  Under loss sharing agreements, the FDIC agrees to absorb a portion of the loss on a specified pool of assets, purchased
by an acquiring institution from a failed bank, in order to maximize asset recoveries and minimize FDIC losses by
keeping the assets in the private sector. The agreements are also intended to minimize disruption of loan customers.
2
  A debt or equity instrument or obligation issued by an entity that entitles its holders to receive payments that depend
primarily on the stock price of the entity.




                             To view the full report, go to www.fdicig.gov/2011reports.asp
    Executive Summary
                                          The FDIC’s Franchise Marketing of AmTrust
                                          Bank
                                                                                               Report No. AUD-11-005
                                                                                                          March 2011


Audit Results
Overall, BDO concluded that the franchise marketing process for AmTrust Bank was completed in
accordance with the FDIC’s resolution policies, procedures, and guidelines for the franchise marketing of
failed banks. BDO found that the FDIC had implemented controls designed to ensure that the resolution
of AmTrust Bank was managed effectively and potential losses to the DIF were minimized for AmTrust
Bank’s failure. While these controls are positive, BDO also found that updated and additional internal
control procedures and certain control enhancements are warranted. Specifically, DRR’s Resolutions
Policy Manual and the Least Cost Test Manual contain outdated information, and certain control
procedures were not followed in marketing AmTrust Bank. As a result, estimated liquidation costs for
AmTrust Bank were understated due to errors that had not been detected in the estimation process. While
the understatement of estimated liquidation costs could impact the determination of the least costly
resolution and bid decision, in this case, the winning bid was significantly below the estimated liquidation
cost, and there was no impact on the outcome of the bidding. Importantly, however, the nature of the
errors made in estimating the liquidation costs could have impacted the bidding process if a misstatement
of the costs was not detected and resulted in selecting other than the least costly option. BDO also found
that documentation of the bidding and least cost resolution determination processes needed improvement.
Further, information security controls for the Least Cost Test (LCT) Model3 and segregation of duties in
the least cost determination process were inadequate to ensure the confidentiality and integrity of related
information. Improvements are also needed to ensure that valuation contractors use approved
methodologies and assumptions for the valuation analysis. Finally, the FDIC’s Division of
Administration (DOA) could not provide evidence of confidentiality agreements for some of the
contractors processing information related to the franchise marketing process for AmTrust Bank.

Taken together, these deficiencies can lead to (1) increased cost to the DIF as a result of erroneous or
incomplete information being used for decision-making in the franchise marketing process, and
(2) inconsistent or unfair treatment of bidders. Control deficiencies in information security and contractor
oversight related to the failing bank marketing process and failing bank data also make the FDIC
vulnerable to data confidentiality and integrity problems.

During and subsequent to the performance of our audit, DRR began remediating some of the findings
discussed in this report. Specifically, the DRR Resolutions Policy Manual, job aids, and instructions to
asset valuation contractors were in the process of being updated, and enhancements have been made to
the LCT Model to improve security and the validation of data inputs. In addition, more robust procedures
have been implemented over the development and testing of the LCT Model to include improved
documentation and approval for LCT Model changes and the related testing processes.

Recommendations, Management Comments, and OIG Evaluation
BDO recommended that the FDIC update the Resolutions Policy Manual and Least Cost Test Manual and
improve the franchise marketing process by establishing adequate information security controls to ensure
the completeness, accuracy, and integrity of the data that is ultimately submitted to the FDIC Board of
Directors. BDO also recommended improving the bidding process by establishing procedures for the
documentation of the FDIC’s approval of potential bidders. In addition, BDO recommended

3
 The LCT Model determines the liquidation value of the failing institution and compares the bids to the liquidation
value and to each other.




                             To view the full report, go to www.fdicig.gov/2011reports.asp
   Executive Summary
                                     The FDIC’s Franchise Marketing of AmTrust
                                     Bank
                                                                                         Report No. AUD-11-005
                                                                                                    March 2011

enhancements related to the methodology and assumptions used in the asset valuation process that would
improve the consistency of information provided and help ensure the reliability of the valuation of the
failing bank’s assets. Finally, BDO recommended that DRR coordinate with DOA to improve contract
administration by establishing procedures to ensure that contractor confidentiality agreements are
completed and documented for contractors involved in the resolution process. The FDIC concurred with
the nine recommendations. The FDIC’s planned and completed actions are sufficient to resolve all the
recommendations.




                         To view the full report, go to www.fdicig.gov/2011reports.asp
Federal Deposit Insurance Corporation                                                              Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General


DATE:                                     March 3, 2011

MEMORANDUM TO:                            Bret D. Edwards, Acting Director
                                          Division of Resolutions and Receiverships


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  The FDIC’s Franchise Marketing of AmTrust Bank
                                          (Report No. AUD-11-005)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. Our evaluation of the Division of
Resolutions and Receiverships response is incorporated into the body of the report. We have
determined that management’s corrective actions are sufficient to resolve the recommendations.
The recommendations will remain open for reporting purposes until we have determined that
agreed-to corrective actions have been completed and are responsive.

If you have questions concerning the report, please contact me at (703) 562-6350 or Lisa
Conner, Audit Manager, at (972) 761-2297. We appreciate the courtesies extended to the audit
staff.

Attachment

cc: Stephen K. Trout, DRR
    Arleas Upton Kea, DOA
    Daniel H. Bendler, DOA
    James H. Angel, Jr., OERM
                                    Contents


Part I

   Report by BDO USA, LLP                                    I-1
   The FDIC’s Franchise Marketing of AmTrust Bank



Part II

   Management Comments and OIG Evaluation                    II-1

   Management Comments                                       II-2

   Summary of Management’s Comments on the Recommendations   II-9
        Part I

Report by BDO USA, LLP
                                                                             Audit Report

                                                                             The FDIC’s Franchise Marketing of
                                                                             AmTrust Bank


                                                                            March 3, 2011




BDO USA, LLP, a Delaware limited liability partnership, is the U.S. member of BDO International Limited, a UK company limited by guarantee, and forms part of the
international BDO network of independent member firms.

BDO is the brand name for the BDO network and for each of the BDO Member Firms.



                                                                                  I-0
                                                                          Tel: 301-654-4900                           7101 Wisconsin Ave, Suite 800
                                                                          Fax: 301-654-3567                           Bethesda, MD 20814
                                                                          www.bdo.com




March 3, 2011

Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226


Re:          Transmittal of Results of the Audit of The FDIC’s Franchise Marketing of AmTrust Bank
             (Report No. AUD-11-005)

Dear Mr. Rymer:

This letter submits our final report representing the results of our performance audit of The FDIC’s
Franchise Marketing of AmTrust Bank in accordance with Contract Number CORHQ-09-G-0386 dated
March 12, 2010. The objective of this performance audit was to assess the FDIC’s franchise marketing
process for AmTrust Bank. As part of our work, we interviewed key DRR officials responsible for the
process and obtained other evidence to accomplish the audit objectives.

We conducted our performance audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS). Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Overall, the franchise marketing process for AmTrust Bank was completed in accordance with the
resolution policies, procedures, and guidelines for the franchise marketing of failed banks. We found that
the FDIC had implemented controls designed to ensure that the resolution of AmTrust Bank was managed
effectively and potential losses to the DIF were minimized for AmTrust Bank’s failure. While these
controls are positive, updated and additional internal control procedures and certain control enhancements
are warranted.

We issued a draft of this report on January 19, 2011. We subsequently met with representatives of the
FDIC’s Division of Resolutions and Receiverships (DRR) in Washington, D.C. and Office of Inspector
General (OIG) representatives to obtain informal feedback on the draft report. Based on the informal
feedback received, we made changes to the draft report that we deemed appropriate. On February 28,
2011, the Director, DRR, provided a formal written response to our draft report.




BDO USA, LLP, a Delaware limited liability partnership, is the U.S. member of BDO International Limited, a UK company limited by guarantee, and forms part of the
international BDO network of independent member firms.

BDO is the brand name for the BDO network and for each of the BDO Member Firms.



                                                                                  I-1
This performance audit did not constitute an audit of financial statements in accordance with GAGAS.
BDO was not engaged to and did not render an opinion on the FDIC’s internal controls over financial
reporting or over financial management systems. BDO cautions that projecting the results of our audit to
future periods is subject to the risks that controls may become inadequate because of changes in
conditions or because compliance with controls may deteriorate. The information included in this report
was obtained from the FDIC on or before September 30, 2010. We have no obligations to update our
report or to revise the information contained therein to reflect events and transactions occurring
subsequent to September 30, 2010.

Please contact Tom D’Amato at 301-634-4900 if you have any questions or comments regarding this
report.



Very truly yours,




BDO USA, LLP




                                                  I-2
                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                                             I-4

BACKGROUND                                                                                    I-6

RESULTS OF AUDIT                                                                             I-10

FINDING A: FRANCHISE AND ASSET MARKETING POLICIES, PROCEDURES,                               I-10
           AND GUIDELINES

     Recommendations Related to the Franchise and Asset Marketing Policies, Procedures,
     and Guidelines                                                                          I-14

FINDING B: LEAST COST TEST MODEL                                                             I-15

     Recommendation Related to Least Cost Test Model                                         I-16

FINDING C: THE LEAST COST TEST RESULTS FOR AMTRUST BANK                                      I-17

     Recommendations Related to the Least Cost Test Results for AmTrust Bank                 I-19

FINDING D: BUSINESS INFORMATION SYSTEMS                                                      I-20

     Recommendation Related to Business Information Systems                                  I-20

FINDING E: CONTRACT ADMINISTRATION                                                           I-21

     Recommendation Related to Contract Administration                                       I-21

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY                                               I-22

APPENDIX II - GLOSSARY OF TERMS                                                              I-24

APPENDIX III - ACRONYMS USED IN THE REPORT                                                   I-26

TABLES

     Table 1: Status of Key Franchise and Asset Marketing Resolution Policies, Procedures,
     and Guidelines                                                                          I-11

     Table 2: Bank D Bid Compared to Amount Entered Into the LCT Model                       I-18




                                                  I-3
EXECUTIVE SUMMARY

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) contracted with BDO
USA, LLP (BDO) to conduct a performance audit of FDIC’s franchise marketing process for AmTrust Bank,
Cleveland, Ohio. AmTrust Bank failed on December 4, 2009. To protect depositors, the FDIC entered into a
Purchase and Assumption (P&A) Agreement 1 with New York Community Bank (NYCB) to purchase $9.2
billion in assets and assume all deposits totaling $8.3 billion from AmTrust Bank. Within the FDIC, the
Division of Resolutions and Receiverships (DRR) is responsible for the resolution of failed financial
institutions, including the marketing of the failed institution and coordinating the transition of the failed bank to
the acquiring institution upon failure. The franchise marketing process involves collecting information on the
assets, liabilities, and franchise value of a failing insured depository institution, developing and implementing
marketing strategies, soliciting and accepting bids for the sale of the institution, determining which bid is least
costly to the Deposit Insurance Fund (DIF), and working with acquiring institutions through the failing
institution closing process. The P&A Agreement with NYCB was determined to be the least costly resolution
strategy for AmTrust Bank and resulted in an estimated savings of $1.6 billion over the cost of liquidation of the
failed bank.

The objective of this performance audit was to assess the FDIC’s franchise marketing process for AmTrust
Bank. As part of our work, we interviewed key DRR officials responsible for the process and obtained other
evidence to accomplish the audit objectives. Our audit work covered DRR compliance with the FDIC’s
policies, procedures, standards, and guidelines during the franchise marketing process of AmTrust Bank. A
detailed discussion of our objective, scope, and methodology is included in Appendix I of this report. The
primary criteria for the performance audit are the FDIC DRR policies, procedures, standards, and guidelines for
the franchise marketing of failed banks, primarily included in the Resolutions Policy Manual (RPM) 2 and the
Least Cost Test (LCT) Manual.

Overall, the franchise marketing process for AmTrust Bank was completed in accordance with the resolution
policies, procedures, and guidelines for the franchise marketing of failed banks. We found that the FDIC had
implemented controls designed to ensure that the resolution of AmTrust Bank was managed effectively and
potential losses to the DIF were minimized for AmTrust Bank’s failure. While these controls are positive,
updated and additional internal control procedures and certain control enhancements are warranted.
Specifically, the RPM and the LCT Manual contain outdated information, and certain control procedures were
not followed in marketing AmTrust Bank. Consequently, information related to liquidation costs was
inaccurate, and the bidding process and the least costly resolution determination process were incomplete.
Further, internal controls related to information technology and the segregation of duties were inadequate to
ensure the confidentiality and integrity of this information.

The DRR franchise marketing process could be improved by establishing procedures and controls for the review
of the LCT Model 3 to ensure completeness and accuracy and integrity of the data that is ultimately submitted to

1
  A P&A transaction occurs when a healthy institution (generally referred to as the acquiring or assuming institution)
purchases some or all of the assets of a failed bank or thrift and assumes some or all of the institution’s liabilities, including
insured deposits.
2
  DRR Circular 7100.1, The Resolutions Policy Manual, issued October 15, 2004, reaffirms the RPM, which contains the
policies and guidelines that apply to all staff in the Franchise and Asset Marketing Branch in both Washington, D.C., and
Dallas, Texas. These policies and guidelines encompass the resolution process for a potentially failing financial institution
up to the date the institution fails.
3
  The LCT Model determines the liquidation value of the failing institution and compares the bids to the liquidation value
and to each other.


                                                               I-4
the FDIC Board of Directors. DRR could improve the bidding process for acquiring institutions by establishing
procedures for the documentation of regulatory approval of potential bidders. Further, enhancements related to
the methodology and assumptions used in the asset valuation process would improve the consistency of
information provided and ensure the reliability of the valuation of the failing bank’s assets. Additionally, DRR
could improve contract administration by establishing procedures to ensure that confidentiality agreements from
contractors are maintained.

Taken together, these deficiencies can lead to increased cost to the DIF as a result of inaccurate and incomplete
information for the franchise marketing process. During and subsequent to the performance of our audit, DRR
began remediating some of the findings discussed in this report. Specifically, the DRR RPM, job aids, and
instructions to the valuation contractors were in the process of being updated, and enhancements have been
made to the LCT Model to improve security and the validation of data inputs. In addition, more robust
procedures have been implemented over the development and testing of the LCT Model to include improved
documentation and approval for LCT Model changes and the related testing processes.

We performed this audit from April 2010 through September 2010 in accordance with the Generally Accepted
Government Auditing Standards (GAGAS) issued by the Comptroller General of the United States and with
audit policies and procedures established by the FDIC OIG. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Additionally, we used the Government Accountability Office’s
(GAO) November 1999 publication Standards for Internal Control in the Federal Government as a guide for
performing the audit. The Glossary in Appendix II contains definitions of the terms used in this report, and
Appendix III contains a listing of acronyms used in the report.

This performance audit did not constitute an audit of financial statements in accordance with GAGAS. BDO
was not engaged to and did not render an opinion on the FDIC’s internal controls over financial reporting or
over financial management systems. BDO cautions that projecting the results of our audit to future periods is
subject to the risks that controls may become inadequate because of changes in conditions or because
compliance with controls may deteriorate.




                                                        I-5
BACKGROUND

FDIC Mission

The FDIC is an independent agency created through the Banking Act of 1933. Its mission is to contribute to the
stability and public confidence in our nation’s financial system by insuring deposits, examining and supervising
financial institutions, and managing receiverships. In its role as federal deposit insurer, and in cooperation with
the other federal and state regulatory agencies, the FDIC promotes the safety and soundness of insured
depository financial institutions by identifying, monitoring, and addressing risks to the DIF.

A key aspect of the FDIC mission is to plan and effectively handle the resolution of failing FDIC-insured
institutions and to provide prompt, responsive, and efficient administration of failed financial institutions in
order to ensure that insured depositors are protected and to minimize losses to the DIF. The FDIC Board of
Directors has delegated significant authority to the Director DRR to conduct the activities required to resolve a
failing institution in the least costly manner and manage the resulting receivership. To minimize the negative
financial effects of failing and failed insured financial institutions on the DIF, DRR uses the least costly
resolution method to resolve institutions. DRR’s Franchise and Asset Marketing Branch (FAMB) should
resolve the troubled institution and sell assets in the manner that results in the least cost and highest recovery to
the FDIC’s insurance funds and other creditors of the failed institution.

Overview of AmTrust Bank

On June 23, 2009, the FDIC Board of Directors approved a failing bank case for AmTrust Bank. On
December 4, 2009, the Office of Thrift Supervision (OTS) closed AmTrust Bank, a federally chartered thrift
institution established in 1921, and appointed the FDIC receiver. At closing, AmTrust Bank had a total of
66 branches in Ohio, Florida, and Arizona and had total assets of approximately $13.0 billion and total deposits
of approximately $8.3 billion. Prior to the bank closing, the Director, DRR, by authority of the FDIC Board of
Directors, approved an all-deposit modified whole bank P&A bid with loss share4 from NYCB, Westbury, New
York, as the least costly transaction on November 25, 2009. On November 25, 2009, the Director approved the
winning bid, which was selected from 14 bids received from 5 bidders. DRR Washington received the bids and
a bid summary report from DRR in Dallas. These bids were compared to the liquidation cost of AmTrust Bank
as well as to the other bids to determine the least costly resolution. The DRR analysis of the bids ranged from a
cost of about $2.2 billion to over $5 billion to the DIF.

Under the P&A Agreement, NYCB assumed all of the deposits of AmTrust Bank and purchased approximately
$9.2 billion in assets of AmTrust Bank at a discount of $425 million. The P&A Agreement also included a loss-
share transaction on approximately $6.3 billion of the $9.2 billion in assets purchased by NYCB. In addition,
the FDIC acquired a value appreciation instrument valued at $10.7 million and transferred to NYCB all
qualified financial contracts to which AmTrust Bank was a party. NYCB’s acquisition of all the deposits and
certain assets was deemed the least costly resolution for the DIF compared to alternatives. The FDIC estimated
that the costs to the DIF of the NYCB acquisition would be approximately $1.6 billion less than if the bank had
been liquidated, meaning that the FDIC makes a payout to all insured depositors and liquidates the assets taken
into receivership.



4
 Under loss sharing agreements, the FDIC agrees to absorb a portion of the loss on a specified pool of assets, purchased by
an acquiring institution from a failed bank, in order to maximize asset recoveries and minimize FDIC losses by keeping the
assets in the private sector. The agreements are also intended to minimize disruption of loan customers.


                                                           I-6
The FDIC retained approximately $3.8 billion of assets, consisting mainly of acquisition, development, and
construction loans and non-performing loans for later disposition. The FDIC estimated the cost of AmTrust
Bank’s failure to the DIF would be $2.2 billion.

Overview of the Franchise and Asset Marketing Process

The FDIC Improvement Act of 1991 5 (FDICIA) included a provision that requires the FDIC to use the least
costly alternative for the deposit insurance fund when resolving a failing institution. Under the FDICIA, the
FDIC must analyze all bids received and provide to the FDIC Board of Directors a comparison of those bids in
relation to the liquidation of the failing institution. The winning bid is selected by comparing all bids and
choosing the one with the least cost to the DIF.

The FDIC Board of Directors authorizes DRR, through the approval of the failing bank case, to evaluate
alternative methods for resolving a failing institution, using reasonable and prudent business judgment. DRR
responsibilities for resolving failing financial institutions includes the marketing of the failing institution and
coordinating the transition to an acquiring institution if the institution fails. The FAMB’s resolution specialists
in Washington, D.C., and in the Field Operations Branch in Dallas, Texas, perform resolution responsibilities.
The responsibility is administered through the resolution and receivership processes.

The resolution process involves collecting information on the assets, liabilities, and franchise value of a failing
insured depository institution, developing marketing strategies, soliciting and accepting bids for the sale of the
institution, determining which bid is least costly to the DIF, and working with acquiring institutions through the
closing process.

The receivership process involves performing the closing function at the failed institution; liquidating any failed
institution assets not purchased by the acquiring institution; and distributing any proceeds of the liquidation to
the failed institution’s customers who had uninsured deposit amounts and, if there are sufficient funds, to other
creditors, with approved claims.

The goals of the resolution and receivership processes are to:

•   Provide depositors timely access to their insured funds.
•   Resolve failing institutions in the least costly manner.
•   Manage receiverships to maximize net return in order to fulfill the FDIC’s statutory obligation to all
    creditors of the receivership. 6

The RPM defines the overall resolution policies and general procedures. Related manuals, such as the LCT
Manual, contain detailed instructions for specific resolution tasks. The procedures described in the RPM apply
to typical resolution activities such as planning and preparing for the resolution project, preparing the
information package, conducting the asset valuation review, marketing the failing institution to qualified
bidders, and selecting the winning bid. Personnel may be required to use tools and methods not specified in the
RPM; however, any deviations from the RPM must be thoroughly documented. The LCT Manual provides
(1) procedures for performing the LCT as a method to analyze and compare bids submitted for failing


5
  The FDIC Improvement Act of 1991 mandated a least-cost resolution method and prompt resolution approach to problem
and failing banks.
6
  The Federal Deposit Insurance Act, 12 United States Code (U.S.C.) 1823 (d) (3) requires the Corporation to maximize the
net-present-value return from the sale or disposition of such asset and minimize the amount of any loss realized in the
resolution of cases.


                                                          I-7
institutions and (2) detailed descriptions on the use of the LCT Model to determine the least costly resolution of
a failing institution.

The FDIC normally begins its formal resolution process upon contact from the troubled institution’s chartering
authority, advising the FDIC of the bank’s expected failure. Once the FDIC receives notification, the FDIC
coordinates with the primary federal regulator of the failing institution to obtain information on the institution’s
assets and liabilities to support the Failing Bank Board Case (Board Case).7 FDIC staff contact the chief
executive officer of the failing institution to discuss logistics, address senior management’s involvement in the
resolution activities, and request loan and deposit data from the institution or its data processing servicer.

After the FDIC receives the requested information from the failing institution, the Marketing Specialist (MS)
begins developing the marketing strategy 8 by analyzing the failing institution’s value based on the:

•   types and quality of assets and liabilities in the information provided by the institution;
•   location of the banking facilities, local competition, economic conditions, and causes of failure;
•   extent of the problems per the primary federal regulator, failing institution liquidity, stability of its core
    deposits and deposit mix, institution’s leases to identify any impediments to marketing them; and
•   any other attribute that may add to the franchise value.

The MS will then determine the type of marketing to offer to potential acquirers. The FDIC’s primary
marketing strategy is a whole bank P&A with or without loss share. Once the marketing strategy is approved by
DRR management, a team of FDIC resolution specialists may visit the institution to gather additional
information. The FDIC then values assets of the institution, determines the resolution options to be offered, and
prepares an information package for potential bidders to access through a secured Website. Based on
recommendations by the Director, DRR, the FDIC Board of Directors approves the resolution options to be used
for the failing institution.

Once the necessary information has been gathered and possible resolution options are approved, the FDIC
begins marketing the failing institution as widely as possible to encourage competition among prospective
bidders. A list of prospective bidders, which are primarily existing financial institutions, is assembled based on
initial criteria that include a prospective bidding institution’s overall condition, size, and capital level; business
plan; geographic market; and minority-owned status. The FDIC also considers the institution’s safety and
soundness rating, as well as the ratings pertaining to information technology, anti-money laundering, consumer
compliance, and community reinvestment. The resulting list of potential bidders will then be notified of a
potential acquisition opportunity. Private investors that do not already control a bank charter may become
potential bidders if they obtain clearance from a chartering authority, satisfy any holding company requirements,
and are in the process of obtaining deposit insurance.

After executing a confidentiality agreement with the FDIC, all qualified bidders gain access to the information
package on a secure Website, which includes financial data on the institution, legal documents, descriptions of
the resolution options being offered, the due diligence process, and the bidding process. The FDIC bidding
options available to bidders typically include an option to assume only insured deposits or all deposits.9

7
  The Failing Bank Board Case is jointly prepared by the DRR and Division of Supervision and Consumer Protection
(DSC) and presented to the FDIC Board of Directors. The main purpose of the Board Case is to delegate authority to the
DRR to resolve the bank. Effective February 13, 2011, DSC was renamed the Division of Risk Management Supervision
(RMS).
8
  The overall goal of marketing the institution is to develop and analyze a variety of marketing options to arrive at a strategy
that encourages competition among potential acquirers and results in the least costly resolution of the failing institution.
9
  These are customer accounts that are held by the failing institution.


                                                              I-8
Additionally, the FDIC advises the bidders about the types and amounts of assets that could pass to an acquiring
institution; the assets the FDIC plans to retain; the terms of the asset sale, such as loss share agreements and
optional asset pools;10 and other significant conditions that are part of the proposed resolution method.

Interested bidders may also perform on-site due diligence, coordinated and monitored by the FDIC, to inspect
the books and records of the failing institution for assessing the value of the franchise. This process ensures that
each bidder is well informed about the circumstances of the failing institution. Bidders submit their proposal(s)
to the FDIC by a specific bid deadline, which is generally 1 week prior to the scheduled closing. Bids consist of
two parts: (1) the premium the bidder is willing to pay for the failing institution’s deposits, and (2) the amount
the bidder is willing to pay to acquire the failing institution’s assets.

The FDIC analyzes all bids to determine whether they conform to the bidding instructions and assesses the cost
of each bid to the DIF. The FDIC determines the least costly resolution transaction by evaluating all possible
resolution alternatives and computing costs on a net-present-value basis. The FDIC is required by law11 to use a
realistic discount rate and document any assumptions used in the evaluation, including any assumptions related
to interest rate, asset recovery rates, asset holding costs, and payment of contingent liabilities. The least costly
determination and the Cost Test Summary (CTS) are included in the Bid Approval Memo (BAM).

Once the least costly resolution is determined and approved, the FDIC notifies the successful acquiring
institution, all unsuccessful bidders, and the acquiring institution’s chartering authority. The acquiring
institution’s chartering authority, the RMS, and the primary federal regulator make the final regulatory decisions
about the transaction to ensure the winning bidder meets all necessary regulatory capital requirements. The
FDIC then arranges for the acquiring institution to sign the appropriate legal documents before the institution’s
closure.

The chartering authority closes the institution and appoints the FDIC as receiver. The FDIC, as receiver, then
begins settling the closed institution’s affairs. Generally, this includes balancing the accounts of the institution
immediately after closing, transferring certain assets and liabilities to the acquiring institution, and determining
the payment due to the acquiring institution, if any.

In a P&A transaction, the acquiring institution usually reopens the failed institution the next business day, with
the customers of the failed institution automatically becoming customers of the acquiring institution with access
to their insured deposits (or all deposits, depending on the nature of the transaction). If the FDIC cannot arrange
for an acquiring institution to assume the insured deposits, the FDIC will take steps to give insured depositors
access to their funds as soon as possible. In some cases, the FDIC will arrange for insured depositors to be paid,
usually by check or through a paying agent (such as another insured institution).



10
   Under certain transaction structures, the FDIC will segregate assets of the failing institution into pools, each containing
similarly situated assets. The prospective acquiring institution may submit a bid to purchase one or more of the pools,
specifying the price bid for each pool to be acquired.
11
   The Federal Deposit Insurance Act, 12 U.S.C. 1823 (c)(4) requires the Corporation to (i) evaluate alternatives on a
present-value basis, using a realistic discount rate; (ii) document the evaluation and the assumptions on which that
evaluation is based; (iii) retain such documentation for not less than 5 years; (iv) treat Federal tax revenues that the United
States Government would forego as the result of a proposed transaction, to the extent reasonably ascertainable, as if such
revenues were foregone by the relevant deposit insurance fund; (v) determine the costs of providing any assistance and the
costs of liquidation as of the dates prescribed in subparagraph (C) of Section 13(c)(4); and (vi) determine the cost of
liquidating any insured depository institution in default, for purposes of comparing such cost with the costs of providing
any assistance, in the manner prescribed in subparagraph (D) of Section 13(c)(4).



                                                             I-9
RESULTS OF AUDIT
FINDING A: FRANCHISE AND ASSET MARKETING POLICIES, PROCEDURES, AND
GUIDELINES

Overall, the franchise marketing process for AmTrust Bank was completed in accordance with the resolution
policies, procedures, and guidelines for the franchise marketing of failed banks. We found that the FDIC had
implemented controls designed to ensure that the resolution of AmTrust Bank was managed effectively and
potential losses to the DIF were minimized for the AmTrust Bank failure. While these controls are positive,
additional internal control procedures for the process and certain control enhancements are warranted.
Specifically:
    •   The RPM and the LCT Manual contain outdated information and procedures. As a result, the RPM and
        LCT Manual did not reflect new systems or roles and responsibilities used in determining the least
        costly resolution strategy. DRR should update the RPM and LCT Manual where appropriate. Table 1,
        below, shows when DRR’s policies, procedures, and guidelines for franchise marketing were last
        updated.
    •   DRR relied on the expertise of its contractors to develop asset valuation assumptions and on the
        experience of its employees to follow appropriate policies, procedures, and guidelines during the
        process. DRR did not provide sufficient guidance for the methodology and assumptions used by its
        contractors for the AmTrust Bank asset valuation to ensure consistency with other bank failure
        information and did not document the review process over the asset valuation report.
    •   The MS did not obtain documented approval from the regulators (FDIC, OTS, and Office of the
        Comptroller of the Currency (OCC)), as required by the RPM, for two of the five bids received for
        AmTrust Bank.
    •   The liquidation values of the premises and equipment, securities, accrued interest, prepaid expenses and
        other assets of AmTrust were based on historical bank failure data. The liquidation values can be
        unreliable if the manual does not reflect current financial statistical data. In the case of AmTrust Bank,
        the historical bank failure data was applied to about $1.3 billion of the $13.0 billion (9.7 percent) total
        assets of AmTrust Bank.
GAO’s Standards for Internal Controls in the Federal Government states that policies and procedures are an
integral part of an organization’s operations and are a key control for ensuring that management’s directives are
carried out. In addition, Circular 4010.3, FDIC Enterprise Risk Management System, dated as of September 25,
2006 requires divisions and offices to maintain current policies and procedures. Without current policies and
procedures, the FDIC has less assurance that its franchise marketing process is being implemented consistently,
in accordance with management’s direction, and produces an accurate result with the least costly resolution to
the DIF.




                                                       I-10
Table 1: Status of Key Franchise and Asset Marketing Resolution Policies, Procedures, and Guidelines
                      Policies, Procedures, and Guidelines                            Last Updated
RPM
    1. Planning and Preparing for the Resolution Project                                 January 2006
    2. Preparing the Information Package and Conducting the Asset Valuation              October 2004
       Review
    3. Marketing the Failing Institution                                                 October 2004
    4. Selecting Bids                                                                    October 2004

LCT Manual                                                                               May 2008
Source: BDO analysis of the DRR’s RPM and LCT Manual.



Resolutions Policy Manual

The RPM provides procedures and guidelines for typical resolution activities. However, the RPM does not
reflect current statutory definitions, information system references, and roles and responsibilities related to the
four key resolution functions noted in Table 1. As a result, the RPM procedures and guidelines could not be
followed in all cases for the franchise marketing of AmTrust Bank and are not applicable to DRR’s current asset
marketing process.

DRR did not provide sufficient guidance related to the AmTrust Bank asset valuation contractor regarding
which methodology and assumptions to use to ensure consistency with other bank failure information and did
not document the review process over the asset valuation report. The valuation contractor was engaged by DRR
to perform a valuation of the AmTrust Bank loan portfolio and the AmTrust Bank mortgage servicing rights.
GAO’s Standards for Internal Control in the Federal Government states that policies and procedures are an
integral part of an organization’s operations and a key control for ensuring that management’s directives are
carried out. Further, the standards state that internal control should be designed to assure that ongoing
monitoring occurs in the course of normal operations. Monitoring controls include regular management and
supervisory activities. DRR relied on the expertise of its contractors to develop asset valuation assumptions and
the experience of its employees to determine report review activities over the valuation contractor’s report. The
asset valuation review report is used to determine values for asset pools to be offered in a resolution and is
instrumental in determining the least cost resolution for the institution. The internal control review procedures
should be completed and should include a review of the asset valuation methodologies used by the contractor.
Without consistent approaches to the preparation and review of the asset valuation report, DRR has increased
the risk that the least costly transaction will not be properly determined.

Controls related to documenting regulatory bid approval of all bidders for AmTrust Bank could be improved.
Specifically, the MS did not obtain documented approval from the regulators (FDIC, OTS, and OCC), as
required by the RPM, for all the bids received for AmTrust Bank. DRR received bids from five banks for
AmTrust Bank, but documentation of regulatory approval was available for only three banks. The MS receives
the regulators’ approvals for received bids either through email or telephone conversations. The absence of
documentation of regulatory approval can result in a bidder that does not meet the bidder qualifications.




                                                        I-11
The paragraphs below describe our audit results related to three of the four key resolution functions.
    Planning and Preparing for the Resolution Project

    The RPM refers to the Bank Insurance Fund and the Savings Association Insurance Fund; however, these
    funds have been replaced by the DIF. In addition, certain roles and responsibilities within the RPM are
    either outdated or no longer applicable, such as the Risk Analysis and Value Estimation (RAVEN) operator.

    Preparing the Information Package and Conducting the Asset Valuation Review

    The RPM refers to the RAVEN system, a program used to assist in the preparation of the Information
    Package and Asset Valuation Review, that is no longer in use by DRR.
    The FDIC now uses valuation contractors extensively for failing bank asset valuations. While an asset
    valuation review report was obtained for AmTrust Bank, enhancements to the internal controls over the
    contractor valuation process could provide for the consistency of the valuation methods within DRR. For
    AmTrust Bank, the contractor was not required to follow asset valuation assumptions and methodologies
    consistent with other failing bank valuations. RPM Chapter III, Conducting the Asset Valuation Review,
    contains asset valuation review procedures and processes. The RPM does not contain specific
    methodologies to be followed by DRR. According to the RPM, assumptions should be based on actual
    liquidation practices and experience in the location of the failing institution’s assets. The FAMB Analysis
    and Evaluation Section provides benchmark data for loans in the National Assumptions Reference Library
    (NARL), located on the FDIC Intranet. The valuation contractor should use the NARL to determine
    whether additional or local assumptions are needed for a specific institution’s assets. The task order issued
    to the valuation contractor did not require use of the guidance in the RPM.
    The RPM states that it may be necessary for the FDIC to hire a contractor to provide valuations for complex
    assets or assets for which the FDIC does not have the valuation expertise or technology. Utilizing outside
    contractors raises the risk of inconsistency in valuation methodologies, sources of information, and
    assumptions used in determining asset values among contractors if such requirements for consistency are
    not explicitly stated in the contractor’s statement of work. Further, different valuation contractors engaged
    to perform various asset or liability valuations could have differing procedures or processes in place to
    determine the valuations and derive their support from different sources. Consistent methodology would
    improve DRR’s assurance that the contractor valuations can be relied upon to accurately reflect asset values
    during the franchise marketing process.
    DRR did not document its review of the asset valuation report received from the valuation contractor. RPM
    Chapter III, Conducting the Asset Valuation Review, requires an asset valuation review. However, the
    review process outlined in the RPM is outdated and references systems, documents, and job aids that are no
    longer being used. DRR developed an unofficial asset valuation report review checklist to document review
    procedures over work performed by asset valuation contractors but did not complete the checklist for
    AmTrust Bank. The completion of a review checklist is an important control function to help ensure that
    the contractor’s report meets DRR requirements.




                                                       I-12
     Selecting Bids

     DRR did not have documented regulatory approval for 2 of the 5 banks that submitted a total of 14 bids for
     AmTrust Bank. The RPM, section V.1, and section 22 of the Marketing Coach Job Aid state that the MS
     must obtain regulatory approval for the bids received. We found that, in practice, the MS obtains approval
     for bidders from the appropriate regulator of each potential bidder either orally or in written communication.
     For AmTrust Bank, the MS obtained documented approval of three banks through email from the regulatory
     agencies and received oral approval (by telephone) for the other two banks, but documentation of that
     communication was unavailable for our review.
     Compensating controls exist that would prevent this lack of documentation of approval from the regulators
     leading to the award of a bid to a bank that was not approved. However, this lack of documentation can lead
     to a bank that was not approved and does not have the proper liquidity and capital requirements12 bidding on
     the assets of the failing institution.


In addition, the manual has not been updated to reflect recent regulatory changes associated with the Dodd-
Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act),13 which will eliminate the OTS, and
any reference to the OTS will need to be removed from the policy. Up-to-date policies, procedures, and
guidelines are an important internal control for ensuring that processes are repeatable and consistent. Further,
disciplined policies help reduce operational risk associated with changes in staff, use of term employees, and
contractor personnel.

Least Cost Test Manual

The LCT Manual provides a detailed description of procedures to determine the least costly resolution of a
failing institution. However, the LCT Manual did not reflect the current DRR business model, liquidation value
determination, roles and responsibilities, and statutory requirements. As a result, the LCT Manual procedures
and guidelines could not be followed in all cases for determining the least costly resolution of AmTrust Bank.

The LCT Manual establishes a process for using the LCT Model and determining the least costly resolution of a
failing institution. The financial information is also used in the Board Case. A DRR resolution specialist in
Washington, D.C., prepares the Board Case for the FDIC Board of Director’s approval. The Board Case gives
DRR authority to determine the least costly resolution of the failing institution to the DIF.




12
   FDIC Circular 6371.1, Bidders List Preparation and Clearance Process, dated December 20, 2004, requires that the
potential bidders have a composite rating of 1 or 2 and possess sufficient resources in relation to the proposed acquisition.
Circular 6371.1, also requires that the resultant institution have a Total Risk-Based Capital Ratio equal to or greater than
8 percent, a Tier 1 Risk-Based Capital Ratio equal to or greater than 4 percent, and a management rating of 2 or better.
13
   The Dodd-Frank Wall Street Reform and Consumer Protection Act, dated July 21, 2010 was enacted to promote the
financial stability of the United States by improving accountability and transparency in the financial system, to end “too big
to fail,” to protect the American taxpayer by ending bailouts, to protect consumers from abusive financial services
practices, and other purposes. The Dodd-Frank Act will reallocate savings and loan holding company supervision to the
Federal Reserve, Federal savings institution supervision to the OCC, and State savings institution supervision to the FDIC.


                                                            I-13
The paragraphs below describe our audit results related to the LCT Manual.

     Liquidation Value Determination

     The LCT Manual contains outdated loss coefficients 14 to be used in determining the liquidation values of the
     premises and equipment, securities, accrued interest, prepaid expenses and other assets of the failing
     institution. The liquidation values can be unreliable if the manual does not reflect current financial
     statistical data. According to the RPM, assumptions should be based on actual liquidation practices and
     experience in the location of the failing institution’s assets.

     Roles and Responsibilities

     The LCT Manual refers to certain employees by name within DRR. The LCT Manual should refer to
     employee position titles to ensure that the manual does not require frequent changes due to employee
     changes.

     Statutory Changes

     The LCT Manual states that escrow accounts for taxes and insurance, usually found in other liabilities are
     insured up to $100,000; however, due to the recent passage of the Dodd-Frank Act, this amount is now set at
     $250,000. Due to the lack of frequent updates, this change has not been made to the LCT Manual. The
     LCT Manual should reflect the latest statutory developments.


By updating policies and procedures, the FDIC could improve assurance that the least costly transaction is being
determined consistent with management’s direction and reliable information is provided in the Board Case for
the FDIC Board of Director’s approval and the Director DRR. Up-to-date policies, procedures, and guidelines
are an important internal control for ensuring that processes are repeatable and consistent. Further, disciplined
policies help reduce operational risk associated with changes in staff and use of term employees and contractor
personnel.

Recommendations: We recommend that the Director, DRR:

     1. Update the RPM and LCT Manual where appropriate. As part of this effort, define the frequency with
        which the manuals will be reviewed for possible updates.

     2. Provide instructions and guidance for methods and assumptions to be consistently used by the valuation
        contractors.

     3. Implement procedures to ensure that regulatory approval of bidders is documented and maintained.

     4. Formalize a checklist for the DRR reviewer’s use in assessing whether the asset valuation conclusions
        reached by the valuation contractor are reasonable.




14
  Loss coefficients are expected losses on assets that are based on historical statistical analysis of failed banks for general
asset categories. The current loss coefficients being used by the DRR are based on historical bank failure data from 1990 to
2003.


                                                             I-14
FINDING B: LEAST COST TEST MODEL

The LCT Manual establishes a process for using the LCT Model in determining the least costly resolution of a
failing institution. We found that the LCT Model and its related LCT Template lack a number of important
controls such as password protection to ensure the integrity of the information, documented approval of changes
to either the program or current version of the LCT Model, and the segregation of duties between the
programmer making changes to the LCT Template and the testing of those changes. Due to an increase in the
number of scenarios in which the template is now being used by DRR, program changes were required for the
least cost test spreadsheet to include unique situations. Appropriately controlled access rights are required to
protect the confidentiality, integrity, and availability of the resource and all associated data. Also, the presence
of well-constructed, frequently changed passwords is required to limit access to corporate data to only those
users who have a need to know the password. Maintaining the segregation of duties between the person making
changes to the LCT Template and the person testing the changes is required to reduce the risk of errors to the
template. Overall, the lack of internal control procedures to limit access to the LCT Model, the lack of
segregation of duties between the programmer making changes to the LCT Model and the testing of those
changes, and the lack of documentation of the approval of changes to the LCT Model could contribute to a loss
in the integrity of the formulae within the LCT Model. These control deficiencies could lead to increased cost to
the DIF if the least costly resolution is not selected as a result of inaccurate information. Details on each of
these areas follow.

Password Protection

The LCT Template is used to create the LCT Model, which is then used by resolution specialists to enter
institution and bid information and arrive at the least cost determination. The LCT Template is located on a
specific drive on the FDIC network, and access to the drive is limited to DRR. According to the LCT Manual,
the LCT Template is protected from changes and alterations by a password and can be opened only as a read-
only file. The read-only file is then saved to a sub-folder usually named for the failing institution. However, we
noted that once the template is used to create the LCT Model for each resolution, this password protection is lost
and not reinstated to ensure the integrity of the information within the file.

Approval of Changes

In accordance with the LCT Manual, suggestions for changes to the LCT Model should be directed to the point
of contact within DRR and the Associate Director of Resolution Strategy. As stated in the LCT Manual, the
Associate Director should be responsible for approving all changes before they are made. Once the changes are
approved, the point of contact within DRR will email the LCT Model changes to the programmer and the
programmer’s supervisor. The programmer must obtain the password from the point of contact before making
changes. The point of contact within DRR tracks the change process and tests the changes for approval. After
the changes are approved, the point of contact changes the password. The point of contact within DRR uses a
spreadsheet to document all changes to the LCT Model and retains all correspondence concerning the changes.
Due to an increase in the number of scenarios in which the template is now being used by DRR, program
changes were required for the least cost test spreadsheet to include unique situations.




                                                       I-15
Segregation of Duties over Program Changes

We found no evidence of formal documentation of the testing over program changes to ensure changes to the
LCT Model are operating properly. The programmer had direct control over the LCT Model to make changes.
The lack of segregation between the development and testing of changes can affect the operation of the LCT
Model. User testing, performed by the MS, allows for the evaluation of the functionality of the LCT Model.
Overall, strengthening the information technology access, change, separation of duties, and approval controls
can help ensure the integrity of the LCT Model and the least costly decision.

Recommendation: We recommend that the Director, DRR:

   5. Test and update the LCT Model’s information security access, change, separation of duties, and
      approval controls, and implement or document that procedures established are being followed to
      maintain integrity of controls.




                                                    I-16
FINDING C: LEAST COST TEST RESULTS FOR AMTRUST BANK

We reviewed the bid analysis for all bids received for AmTrust Bank and confirmed DRR’s determination of a
P&A Agreement with NYCB as the least costly resolution in accordance with the RPM and LCT Manual.
However, controls over information entered into the LCT Model for asset valuation percentages15 and asset bid
discounts could be enhanced. Specifically, the resolution specialist used incorrect percentages to value the
assets at the then market value for eight of the asset groups. The resolution specialist rounded the asset discount
value from a bid received which led to an incorrect cost determination. These errors were not detected because
the resolution specialist did not complete the Qualified Bidder and LCT checklists required by the RPM and
LCT Manual, respectively. In addition, the CTS submitted to the Board of Directors or Director, DRR, could be
enhanced to provide additional disclosure of information for decision making.

DRR completed the LCT for AmTrust Bank and determined that there would be a cost of approximately
$3.7 billion to the DIF in the event of liquidation. The cost was determined through the use of data from the
Balance Sheet of AmTrust Bank as well as asset valuations of several asset pools and the use of loss coefficients
based on historical losses to the insurance funds for bank failures from 1990 to 2003. Our analysis of the asset
valuations identified that two components, asset valuation percentages and asset discounts, that were used to
derive the asset valuations contained errors, as discussed below. Using incorrect asset valuation percentages and
discount values could lead to increased cost to the DIF.

Asset Valuation Percentage

During our testing of data entered into the LCT Model, we noted that the specialist used incorrect asset
valuation percentages for eight of the asset groups. The correct asset valuation percentages were available in the
valuation report. The use of the correct asset valuation percentages would have decreased the estimated value of
the asset groups by about $85 million, resulting in a liquidation cost estimate that was about $85 million more
than the liquidation cost estimate used in determining the least cost resolution. Therefore, the incorrect
valuation percentages did not affect the least cost determination for AmTrust Bank. In addition, the specialist
also incorrectly calculated the estimated loss for one asset group and “other assets” by transposing a number
when entering the accrued interest balance. Similar to the asset valuation percentages, the correct calculation of
the value of “other assets” would have increased the liquidation cost estimate. Nevertheless, the transposition
error did not impact the least cost determination for AmTrust Bank.

The human input errors affecting the liquidation value computation did not affect the bid information or the bid
process for AmTrust Bank. The liquidation value is used to compare the cost of liquidation by the FDIC to the
cost of the bids received. Although, the manual input errors did have a significant effect on the liquidation
value, in this instance, the errors did not have an effect on the selection of the winning bid.

Asset Discount Value

The resolution specialist entered a rounded instead of exact asset discount value for the bid from Bank D into
the LCT Model. As identified in Table 2 below, the bid received from Bank D had an asset discount value of
$1,760,413,000. However, the resolution specialist entered an asset discount value of $1,760,000,000 when
performing the LCT Model. Accordingly the Bank D bid was overstated by $413,000 during the bid analysis
process. In this case, the rounding error did not have an effect on the bid evaluations, winning bid selection, or
15
   Asset valuation percentages are based on an asset valuation review that compares the book value of assets to the
estimated recovery values to help determine the projected net loss to the FDIC. The asset valuation percentages are used to
determine the asset discount on the assets valued.


                                                           I-17
LCT, but using incorrect asset discount values could lead to an improper conclusion on the LCT and an
increased cost to the DIF.

Table 2: Bank D Bid Compared to Amount Entered Into the LCT Model
Description                                                                                Value

Asset discount value from Bank D bid                                                 $ 1,760,413,000

Bank D asset discount value used in LCT Model calculation                                1,760,000,000

Asset discount value overstatement for Bank D bid                                    $        413,000
Source: Analysis of Bank D Bid on AmTrust Bank.



LCT and Qualified Reviewer Checklists

The asset valuation percentages and asset discount value data entry errors were not detected because the LCT
and Qualified Reviewer checklists were not completed for AmTrust Bank, and the information in the LCT
Model was not verified for accuracy and completeness. The RPM requires the completion of the Qualified
Reviewer checklist for each failed institution, and the LCT Manual requires that an LCT Checklist be completed
by the specialist. According to DRR personnel, the LCT and Qualified Reviewer checklists were not completed
because the resolution specialists relied on their years of experience in completing the LCT Model.

The LCT checklist is to be completed for each failing institution. For example, the checklist identifies the
procedures to set up and complete the LCT Model. The procedures include: copying the template file to create
the working LCT Model file; modifying the LCT Model file to conform with the recommended marketing
strategy for the failing institution’s deposits, facilities, loan asset pools, loss share arrangements, and other
liabilities and assets; and verifying the failing institution’s financial data, FDIC asset valuation data, and
individual bid data inputs into the LCT Model. The LCT Manual requires that the resolution specialist
complete, sign, and include the checklist in the failed institution’s asset marketing file.

The LCT Manual also requires the completion of a Qualified Reviewer Checklist, which requires the qualified
reviewer to verify and trace the information in the LCT Model to ensure the completeness and accuracy of that
information. The qualified reviewer is someone within DRR who is not familiar with the failing bank case but
knowledgeable about the resolution process. According to the LCT Manual, once the AmTrust Bank case was
finished and ready to be distributed to FDIC senior management, the qualified reviewer was supposed to
conduct a review of the LCT and other components of the Board Case for consistency, clarity, and accuracy.
The qualified reviewer must also verify that the LCT Model has not been modified when compared to the then-
current template to ensure the integrity of the information entered into the LCT Model. The qualified reviewer
is required to sign on the signature page of the BAM supporting the resolution recommendation.




                                                      I-18
Cost Test Summary (CTS) and Bid Approval Memorandum

The LCT Model produces the CTS, which compares the liquidation costs to the winning bid and the second-best
bid. The CTS is included in the BAM submitted to the Director, DRR, for approval. The AmTrust Bank BAM
included a description of the failing institution; the reason for the bank failure; and a discussion of the winning
and the second-best bids, the CTS, and a summary of all bids received. The CTS could be enhanced to provide
additional financial institution and bid information to facilitate decision making.

Specifically we noted the following in the AmTrust Bank CTS included in the BAM:

            •   An amount was labeled in the CTS for deposit payout to AmTrust depositors in the state of
                Ohio, when that amount actually represented the Ohio deposits and significant liabilities owed
                to additional creditors, including Federal Home Loan Bank advances. This can lead to a
                misrepresentation of the facts and the non-approval of a winning bidder by the Board of
                Directors or their delegate.
            •   Explanations were not provided for each item reported (such as Assets under Loss Share, Assets
                Passed with no Loss Share, Assets Retained, Initial Payment, etc.) in the CTS and the summary
                of bid information. This can lead to a misrepresentation of the facts and the non-approval of a
                winning bidder by the Board of Directors or their delegate.
            •   The format of the information presented in the CTS did not allow for a clear understanding of
                the differences between bids and the determination of the winning bidder. For example, the two
                top bids received included a loss share agreement; however, loss share payments were shown
                for only one bidder, and there was no reason given for the other bidder showing a zero loss
                share payment. Clear, distinct explanations of the information provided in the CTS will
                enhance the effects and differences between the two highest bids for the user, whether it is the
                Director, DRR, or the FDIC Board of Directors.

Overall, errors and the lack of clear explanations and information in the CTS could lead to the selection of a bid
that does not represent the least loss to the FDIC.

Recommendations: We recommend that the Director, DRR:

    6. Implement procedures to ensure the LCT and Qualified Reviewer checklists are completed to verify the
       completeness and accuracy of the information included in the LCT Model.

    7. Expand informational disclosures to define and explain account descriptions contained in the CTS
       included in the BAM.




                                                       I-19
FINDING D: BUSINESS INFORMATION SYSTEMS

While comprehensive procedures existed for the collection and the distribution of data obtained from the failing
institution during the AmTrust Bank franchise marketing process, internal control procedures could be improved
to administer and manage access rights to database management systems.

Business Information Systems (BIS), an organizational unit within FAMB, supports the franchise marketing
process by providing data processing services related to the failing institution. The BIS professionals work
closely with the MS and team leader in gathering financial information related to the failing institution and
distributing the data to DRR secure Websites for analysis by the resolution team and valuation specialist and in
supporting financial institution bidding activities. The BIS professionals use contractors to assist with their
procedures. In accordance with FDIC Circular 4010.3, the FDIC DRR has operating procedures for BIS that are
current and appropriately documented, with reasonable controls incorporated into their procedures. However,
enhanced management of administrative access rights would prevent the access of financial information by
unauthorized users which could affect the integrity and accuracy of the information provided to DRR and
bidding institutions.

Access to Databases and Systems
The FDIC granted an excessive number of user’s administrative access rights to the database management
system. Administrative access rights allow users to bypass many of the database management system controls
over user activities. The FDIC granted these powerful access rights to 62 users for the structured query
language main database containing the AmTrust Bank data download. The access permissions were granted
primarily due to contractors being grouped together and given access as a group. In addition, the FDIC has
established procedures governing the provisioning of user access accounts across all systems and databases;
however, user access to the main database and SharePoint® Website is not rescinded in a timely manner after a
bank closing. FDIC Directive 1360.15, Access Control for Information Technology Resources, dated
February 27, 2009, states that access controls shall be implemented whenever an information technology (IT)
resource owner requires that access to the IT resource must be restricted to a limited set of users or that different
users require different types of access. Also, access to IT resources shall be provided for legitimate business use
only after proper authorization has been provided when required. Based on inquiries with the FDIC’s BIS and
Division of Information Technology teams, we determined that the user access lists provided during the audit
were the same as of the date of the AmTrust Bank closing, which evidenced that no user access had been
rescinded after the closing. Access should be removed if the job responsibilities of the user change, if the user
transfers to a different organization, or if the user no longer requires access for any other reason. Appropriate
restriction of user access rights in accordance with FDIC policy and the timely recision of user access after a
bank closing will help prevent unauthorized data changes.

Recommendation: We recommend that the Director, DRR:
    8. Implement a pre- and post-closing procedure to evaluate all access, including administrative access
       rights, and restrict access rights to reduce the potential for unauthorized data access changes.




                                                        I-20
FINDING E: CONTRACT ADMINISTRATION
The FDIC uses contractors to assist with asset valuation and data integrity throughout the franchise marketing
process. Although the FDIC requires confidentiality agreements for contractors and their key professionals, for
AmTrust Bank, confidentiality agreements could not be provided for two of the five key personnel identified in
the Basic Ordering Agreement. In addition, the FDIC could not locate the confidentiality agreement for the
primary contractor entity responsible for handling all the electronic data from the failing institution but executed
a new agreement on September 20, 2010, following our inquiry. The Division of Administration (DOA) is
responsible for the maintenance of confidentiality agreements. The missing documents can be attributed to the
lack of procedures for tracking and maintaining confidentiality agreements. Consequently, the FDIC has less
assurance that the contractors performing services under FDIC contracts have agreed to protecting and
safeguarding sensitive information.

Tracking and maintaining confidentiality agreements for certain contractors
During our testing of contractor requirements related to the franchise marketing of AmTrust Bank, the FDIC
could not provide evidence that the BIS contractor company signed the required confidentiality agreement
before commencement of their engagement on AmTrust Bank. The FDIC obtained a company confidentiality
agreement after our inquiry into the existence of an agreement. In addition, there was no record of
confidentiality agreements, FDIC Form 3700-46, signed by the BIS contractor for two of the five key personnel
identified in the Basic Ordering Agreement. Signature of the contractor on Form 3700-46 acknowledges that
the contactor has read FDIC Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007. This
circular documents the FDIC policy on protecting sensitive information collected and maintained by the FDIC
and provides guidance for safeguarding the information.
Without completed confidentiality agreements, the FDIC cannot ensure that FDIC contractors have agreed to
protecting and safeguarding sensitive information as prescribed by FDIC Circular 1360.9.

Recommendation: We recommend that the Director, DRR:
    9. Coordinate with the DOA to implement procedures for the tracking and maintenance of DRR contractor
       confidentiality agreements.




                                                       I-21
                                                APPENDIX I
                                OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The objective of this performance audit was to assess the FDIC’s franchise marketing process for AmTrust
Bank. Specifically, we assessed the reliability of and compliance with the FDIC’s policies, procedures,
standards, and guidelines for the franchise marketing of AmTrust Bank. To accomplish the objectives, BDO:

    •   Assessed the FDIC DRR’s franchise marketing process and program results for AmTrust Bank.

    •   Assessed the FDIC DRR’s overall internal control policies and general procedures for conducting the
        overall franchise marketing process for AmTrust Bank in accordance with applicable provisions of the
        RPM.

    •   Assessed the FDIC DRR’s policies and procedures for asset valuations, including the related oversight
        and monitoring of contractors involved in the valuation of AmTrust Bank, and the review of the bank
        valuations by the DRR valuation expert in accordance with applicable DRR guidelines.

    •   Assessed FDIC DRR’s policies and procedures for conducting the bidding process for AmTrust Bank in
        accordance with applicable sections of the RPM, and Marketing Coach and Team Leader Job Aids.

    •   Assessed FDIC DRR’s policies and procedures for conducting the least cost test for AmTrust Bank that
        determines the winning bid in accordance with the LCT Manual and the least costly resolution strategy
        of AmTrust Bank to minimize the loss to the DIF.

    •   Assessed the completeness and accuracy of the failing institution data compiled by the FDIC BIS team.

    •   Assessed the completeness and accuracy of the BIS-generated deliverables, as well as the interfaces of
        the deliverables throughout the resolution process.

We conducted this performance audit from April 2010 through September 2010 in accordance with GAGAS.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objective.

Scope and Methodology

Our procedures covered the processes followed during the franchise marketing process of AmTrust Bank.
Specifically, the audit covered the following:

•   Tested the compliance with overall internal control policies and general procedures by walkthrough
    procedures, which included either one or a combination of inquiry, observation, verification, or re-
    computation.

•   Reviewed the contractor selection process, FDIC oversight and monitoring procedures of the contractors
    utilized, user/contractor access controls for sensitive information, and the final deliverable that aligns with
    the DRR Contractor Statement of Work.


                                                       I-22
•   Determined whether the models, methodologies, and assumptions used by the valuation contractor are in
    accordance with FDIC guidelines, reviewed the controls over the determination of the value of AmTrust
    Bank, evaluated the effect of uninsured depositors on the valuation process, and assessed approvals of
    valuation deliverables and reasonability testing of the end results provided by the valuation contractor.

•   Determined the reasonability of the values of the whole bank assets, liquidation values, and assets
    transferred and kept within the FDIC. In addition, we reviewed the valuation of the loans and other assets
    performed by the valuation specialist and determined the reasonability of other failed bank assets, liabilities,
    and intangible/intrinsic values, if any, not performed by the valuation contractor.

•   Tested the controls surrounding the LCT, including worksheets utilized in the process. Specifically, we
    determined whether:
        a. an LCT was conducted and performed timely;
        b. the LCT Model is operating as designed;
        c. the source data entered agrees to the source documents (AmTrust Bank financial data and bid
            information);
        d. all resolution options were considered and properly evaluated;
        e. the documentation of evaluations and assumptions was sufficient;
        f. the procedures and rationale for the structure of the franchise sale and pre-set resolution were sound;
        g. the authorization of the resolution decision with the lowest-cost option was given;
        h. the Board Case development, content, and approvals were complete;
        i. there was a comparison to actual sale results and whether the actual loss share component results are
            comparable to the estimate used in the valuation;
        j. the LCT results estimate the actual impact to the DIF.

•   Reviewed the process for the selection and approval of bidders, the exclusion of prohibited purchasers, and
    the receipt of bidder confidentiality agreements. We reviewed the authorization for marketing AmTrust
    Bank and determined whether the marketing strategy was developed in accordance with policies and
    procedures and whether approvals of the marketing strategy were obtained. Additionally, we reviewed the
    process for the establishment of the secure bidder Website, management of sensitive information, and
    whether archiving policies were achieved.

•   Assessed and tested controls over data retrieval, dispersion, and storage as considered necessary. This
    includes controls over data postings to the various systems and the data integrity during the data extraction
    and delivery process performed by DRR.

•   Evaluated the integrity of the AmTrust Bank data imported by the FDIC BIS team and reviewed the data for
    completeness and accuracy. Also evaluated the interfaces between the initially imported AmTrust Bank
    data and the various secure Website destinations.




                                                       I-23
                                           APPENDIX II
                                      GLOSSARY OF TERMS
Term                     Definition
Asset Valuation Review   Process that estimates the value of assets to the FDIC as receiver of the failing
                         institution. The asset valuation review compares the book value of assets to the
                         estimated recovery values to help determine the projected net loss to the FDIC.


Bid List                 List of qualified potential acquiring institutions provided to the FAMB by the
                         Division of Risk Management Supervision. These potential acquiring institutions
                         are invited to bid on the failing institution.


Call Report              Consolidated reports of condition and income submitted quarterly by an institution
                         to the FDIC (for national and state non-member banks) or to the appropriate
                         Federal Reserve Bank (for state member banks).

Confidentiality          Agreement between the FDIC and potential acquiring institutions and contractors,
Agreement                acknowledging the confidentiality of the failing institution’s Information Package
                         and other documents and procedures related to the resolution of the failing
                         institution.


Information Package      Product developed by Franchise Marketing as a marketing tool, which provides a
                         snapshot of the failing institution's assets, liabilities, and business on a specific
                         date. It is comprised of two parts. The first part is a summary-level detail of
                         assets and liabilities that are available for acquisition along with a summary of
                         terms and various transactions being offered. The first part is provided to
                         potential bidders. The second part provides specific detail of assets and liabilities,
                         including items being excluded from the transaction. Both parts are provided to
                         the FDIC Closing Team and other regulatory agencies to assist in preparation for a
                         resolution.


Least Cost Test          An analysis of the bids received to determine the resolution alternative that will
                         result in the least cost to the DIF.


Least Cost Test Manual   The Least Cost Test Manual provides a detailed description of how to use the LCT
                         Model, which is used to determine the least costly resolution of a failing
                         institution.


Loss Share Agreement     An agreement entered into by and between the FDIC, as receiver for a failed
                         institution, and an acquiring institution whereby a pool of problem assets is sold to
                         an acquiring institution under an agreement that the FDIC will share a portion of
                         the losses. This structure allows the FDIC to reduce the immediate cash outlays
                         for a P&A transaction and maximize asset recoveries.




                                                  I-24
Term                        Definition
Office of the Comptroller   Chartering agency for national banks and of the U.S. Treasury. OCC approval is
of the Currency             required by law in connection with the organization of new national banks, the
                            conversion of state-chartered banks into national banks, and consolidations or
                            mergers involving national banks. In a failing bank situation, the OCC declares
                            national banks insolvent, closes the institution, and appoints the FDIC as receiver.


Office of Thrift            The office within the U.S. Treasury Department that has responsibility for the
Supervision                 overall supervision, regulation, and examination of federally chartered thrift
                            institutions.


Optional Asset Pools        Under certain transaction structures, the FDIC will segregate assets of the failing
                            institution into pools containing similarly situated assets. The prospective
                            acquiring institution may submit a bid to purchase one or more of the pools,
                            specifying the price bid for each pool to be acquired.


Purchase and                The agreements executed between the receiver, buyer, and seller of the failing
Assumption Agreement        institution.


Qualified Financial         Those qualified financial contracts that are defined in 12 U.S.C. 1821(e)(8)(D) to
Contracts                   include securities contracts, commodity contracts, forward contracts, repurchase
                            agreements, and swap agreements and any other contract determined by the FDIC
                            to be a qualified financial contract as defined in that section.


Qualified Reviewer          Designated resolution specialist with responsibility to review the least cost
                            determination. The qualified reviewer is someone within DRR who is not familiar
                            with the case but knowledgeable about the resolution process.


Receiver                    An agent (in the instance of a failed institution, the FDIC) appointed by a failed
                            institution's primary regulator to manage the orderly liquidation of the failed
                            institution.


Resolutions Policy          The manual focuses on the overall resolution policies and general procedures.
Manual                      Detailed instructions for specific tasks are referenced throughout the manual.


Servicing Pool              A portfolio of assets often composed of assets with similar characteristics.


Uninsured Deposits          Amounts on deposit with a financial institution that are in excess of the amounts
                            insured by the DIF.


Value Appreciation          A debt or equity instrument or obligation issued by an entity that entitles its
Instrument                  holders to receive payments that depend primarily on the stock price of the entity.




                                                    I-25
                                  APPENDIX III

                       ACRONYMS USED IN THE REPORT

Acronym:   Explanation:
BAM        Bid Approval Memorandum
BDO        BDO USA, LLP
BIS        Business Information Systems
CTS        Cost Test Summary
DIF        Deposit Insurance Fund
DOA        Division of Administration
DRR        Division of Resolutions and Receiverships
DSC        Division of Supervision and Consumer Protection
FAMB       Franchise and Asset Marketing Branch
FDIC       Federal Deposit Insurance Corporation
FDICIA     Federal Deposit Insurance Corporation Improvement Act
GAGAS      Generally Accepted Government Auditing Standards
GAO        Government Accountability Office
IT         Information Technology
LCT        Least Cost Test
MS         Marketing Specialist
NARL       National Assumptions Reference Library
NYCB       New York Community Bank
OCC        Office of the Comptroller of the Currency
OIG        Office of Inspector General
OTS        Office of Thrift Supervision
P&A        Purchase and Assumption
RAVEN      Risk Analysis and Value Estimation
RMS        Division of Risk Management Supervision
RPM        Resolutions Policy Manual
U.S.C.     United States Code




                                          I-26
                Part II

Management Comments and OIG Evaluation
MANAGEMENT COMMENTS AND OIG EVALUATION

    DRR provided a written response, dated February 28, 2011, to the draft of this report.
    Management’s response is presented in its entirety beginning on page II-2. Management
    agreed with the nine BDO recommendations.

    A summary of management’s comments on the recommendations begins on page II-9.
    DRR’s planned and completed actions are responsive to BDO’s recommendations, and
    all of the recommendations are resolved. The recommendations will remain open until
    we determine that the agreed-to corrective actions have been completed and are
    responsive.




                                             II-1
                                  MANAGEMENT COMMENTS



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                     Division of Resolutions and Receiverships

 DATE:            February 28, 2011

TO:               Russell A. Rau
                  Assistant Inspector General for Audits

                  /Signed/
FROM:             Bret D. Edwards, Acting Director
                  Division of Resolutions and Receiverships

SUBJECT:          Response to Draft Audit Report Entitled, The FDIC’s Franchise
                  Marketing of AmTrust Bank (Assignment No. 2010-032)

This memorandum is in response to the recommendations in the subject draft audit report dated
January 19, 2011.

The Division of Resolutions and Receiverships (DRR) has been working to strengthen internal
controls in the Franchise Marketing process as a result of GAO’s 2009 Financial Statement audit.
Many of the recommendations included in the subject report are similar to those cited by GAO
and have already been corrected or are in the process of being corrected.

Early in 2010, the Closed Bank Financial Risk Committee was established to quantify risks to
the insurance fund that are posed by the resolution of failed insured institutions and failed
institutions’ assets. The committee meets quarterly and is comprised of senior management from
DRR, Division of Insurance and Research (DIR), Division of Finance (DOF) and Division of
Risk Management Supervision (RMS). In addition, DRR created various Job Aids and
implemented new committees and review procedures for least cost test and asset valuations. In
October 2010, a new statement of work for the asset valuation contract was issued. The new
statement of work provides more detail, better guidance and clearer instruction regarding
methodology and deliverables. An FA Asset Valuation Review Group and the Resolution
Strategy Committee were established to enhance the quality of the valuations and to provide a
mechanism for approving both the asset valuation and the resolution strategy developed for each
failing institution. In May 2010, Business Information Systems (BIS) implemented a role-based
security model for all new SharePoint sites and developed a plan to restrict the number of users
with administrative rights to the database management system. Beginning in July, 2010, BIS
began performing periodic security reviews to reduce the number of people with access over
time.

DRR agrees with all recommendations in the draft report and is committed to implementing the
recommendations in a timely manner.


 OIG Audit Recommendation 1: Update the RPM and LCT Manual where appropriate. As part
 of this effort, define the frequency with which the manuals will be reviewed for possible updates.

        DRR Response: DRR agrees with this recommendation. The Resolutions Policy Manual
        and Least Cost Test Manual have been combined (i.e. Resolution Manual) and updated.




                                                  II-2
II-3
II-4
II-5
II-6
II-7
II-8
        SUMMARY OF MANAGEMENT’S COMMENTS ON THE RECOMMENDATIONS

This table presents management’s response to the recommendations in the report and the status of the
recommendations as of the date of report issuance.


                                                                  DRR
 Rec.                                                                        Monetary   Resolved:a   Open or
              Corrective Action: Taken or Planned               Completion
Number                                                                       Benefits   Yes or No    Closedb
                                                                  Date
   1.     DRR agreed with the recommendation. The                March 31,      $0         Yes        Open
          RPM and LCT Manual have been combined as                2011
          the Resolutions Manual. DRR anticipates that
          the Resolutions Manual will be approved by
          March 31, 2011. The Resolutions Manual will
          be reviewed and updated annually, if necessary.

   2.     DRR agreed with this recommendation and                October        $0         Yes        Open
          completed corrective actions in 2010. In June           2010c
          2010, DRR formally updated the Standard Asset
          Value Estimation (SAVE) Manual referencing
          the use of valuation contractors and providing
          general procedural guidance.

          Initially, valuation contractors were operating
          under contract terms that provided very broad
          guidance regarding valuation methodology. As
          of October 2010, asset valuation contractors
          have been operating under new contract terms
          that contain a more structured statement of work
          than was previously in place. The new statement
          of work provides more detail, better guidance,
          and clearer instructions regarding methodology,
          formatting, and deliverables. Contractors are
          now required to submit specific information in a
          multi-page spreadsheet format. In addition,
          contractors are now required to provide detail on
          their valuation methodology, assumptions, and
          file review notes in the narrative portion of their
          written report.




                                                       II-9
                                                               DRR
 Rec.                                                                     Monetary   Resolved:a   Open or
             Corrective Action: Taken or Planned             Completion
Number                                                                    Benefits   Yes or No    Closedb
                                                               Date
  3.     DRR agreed with this recommendation. To              April 30,      $0         Yes        Open
         improve the documentation supporting verbal           2011
         confirmations received from the primary federal
         regulators of failing institutions, DRR will
         include additional steps in the procedures for
         documenting regulatory approval. The MS will
         ask the regulators to email confirmation that the
         bidders are cleared to bid. If a confirmation is
         not received and the regulator verbally cleared
         the bidder, the MS will email the regulator
         confirming the phone conversation when the
         regulator cleared the bidder. The expected
         completion date for updating the corresponding
         Job Aid is April 30, 2011.

  4.     DRR agreed with this recommendation and              October        $0         Yes        Open
         completed corrective action in 2010. DRR’s            2010c
         response states that DRR strengthened the
         valuation review processes beginning in June
         2010. A Job Aid was approved in October 2010.
         A Vertical Review Team has been established
         that formally reviews both the spreadsheet
         information and the narrative for each asset
         valuation report, using a Vertical Review
         Checklist. Approximately 100 of these
         checklists have been reviewed and approved
         since June 2010.

         Additionally, the results of the Asset Valuation
         Review are sent to the DRR’s Asset Valuation
         Review Group for review. This review includes
         “a comparison with previous AVR [Asset
         Valuation Review] results, with other valuation
         contractors, and across geographic location,
         looking for any outlier valuations that appear to
         be outside normal ranges.”

         The Vertical Review Checklist and Job Aids are
         referenced in the updated Resolutions Manual,
         and the Asset Valuation Review deliverables as
         well as completed checklists are now retained in
         the Communication, Capability, Challenge, and
         Control (4C) System.




                                                     II-10
                                                               DRR
 Rec.                                                                     Monetary   Resolved:a   Open or
             Corrective Action: Taken or Planned             Completion
Number                                                                    Benefits   Yes or No    Closedb
                                                               Date
  5.     DRR agrees with this recommendation and has          April 30,      $0         Yes        Open
         implemented procedures to improve controls in         2011
         this area. Procedures for accessing, changing,
         approving, and testing over both the LCT file
         and the Loss Share Worksheet have been
         implemented. These procedures will be
         documented in a new Job Aid, which is
         scheduled to be completed by April 30, 2011.

  6.     DRR agreed with this recommendation and              July 29,       $0         Yes        Open
         completed corrective action in 2010. As a result      2010c
         of the findings contained in the GAO’s 2009
         financial statement audit report, DRR’s
         Franchise Marketing implemented new review
         procedures in June 2010 to verify that the LCTs
         completed for failed banks were complete and
         accurate. The new review procedures were
         approved by the Deputy Director, DRR, on
         July 29, 2010, and consist of the following:
         (1) a peer review utilizing a Qualified Reviewers
         Checklist; (2) the Manager, Franchise
         Marketing, reviews 100 percent of the LCTs and
         indicates evidence of review by signing the
         BAM; and (3) a post-closing review by
         Franchise Marketing staff using the Qualified
         Reviewers Checklist.

         In addition, Franchise Marketing conducted
         post-closing reviews on all 2010 failures, using
         the newly implemented Qualified Reviewers
         Checklist. Any errors that are discovered during
         the post-closing review and impact the cost to
         the FDIC are corrected and promptly sent to the
         FDIC’s Division of Finance to be reflected in the
         Corporation’s books and records.




                                                    II-11
                                                                DRR
 Rec.                                                                      Monetary   Resolved:a   Open or
             Corrective Action: Taken or Planned              Completion
Number                                                                     Benefits   Yes or No    Closedb
                                                                Date
  7.     DRR agreed with this recommendation. DRR              April 30,      $0         Yes        Open
         stated that the descriptions contained in the CTS      2011
         cannot be expanded, but DRR plans to provide
         better explanation in the BAM when there are
         account descriptions that deviate from the
         standard transactions being offered such as with
         nonconforming bids or as new structures are
         being introduced into the resolution process.
         DRR’s response states that the Director, DRR,
         and Board of Directors are familiar with bid
         terms from the monthly Board Meetings and
         routine briefings.

         According to DRR, the CTS is an Excel
         spreadsheet that is used to present the results of
         the least cost analysis and therefore does not
         provide the flexibility for a description of every
         line item. Line items on the CTS that differ
         from the standard description will be revised to
         reflect the appropriate description, or a footnote
         will be added to the CTS. Franchise Marketing
         will add a step to the Bid Approval-Least Cost
         Test Instructions Checklist that requires the
         Analysts to expand informational disclosures
         that define and explain account descriptions in
         the narrative of the BAM, as deemed necessary.
         DRR expects to complete the update to the
         related Job Aid by April 30, 2011.




                                                      II-12
                                                               DRR
 Rec.                                                                     Monetary   Resolved:a   Open or
             Corrective Action: Taken or Planned             Completion
Number                                                                    Benefits   Yes or No    Closedb
                                                                Date
  8.     DRR agreed with this recommendation.                 June 30,       $0         Yes        Open
         According to DRR, the following changes have           2011
         been made or are in the process of being
         implemented to improve security.

          - To aid in administration of the BIS SharePoint
         server, DRR added a new SharePoint security
         group with access to all standard bank project
         data except areas containing sensitive Large
         Bank information.

          - In May 2010, BIS implemented a role-based
         security model for all new SharePoint sites.
         DRR’s Business Program Management Section
         is currently updating DRR’s SharePoint
         governance policy, which includes the role-
         based security model and is expected to be
         completed by April 30, 2011. In conjunction
         with the implementation of role-based security
         for SharePoint mentioned above, BIS developed
         a plan to restrict the number of users with
         administrative rights to the database
         management system by creating a new role in
         the system with access to perform specific
         database functions. Limiting the activities the
         new role can perform will prevent non-
         administrative users from altering database
         membership. DRR anticipates that the new user
         role approach will be implemented by June 30,
         2011.

          - In July 2010, BIS began performing periodic
         security reviews corresponding with Critical
         Bank Project Milestones to reduce the number of
         people with access over time. At the time of
         each review, non-essential user access to the
         database system and SharePoint information is
         restricted.




                                                    II-13
                                                                        DRR
 Rec.                                                                                   Monetary       Resolved:a     Open or
                 Corrective Action: Taken or Planned                  Completion
Number                                                                                  Benefits       Yes or No      Closedb
                                                                         Date
  9.        DRR agreed with this recommendation. DRR                  February 7,           $0             Yes         Open
            noted that on September 15, 2010, DOA issued                2011c
            policy addressing non-key personnel that is
            consistent with the OIG’s recommendation. The
            policy addresses the immediate need for
            requiring confidentiality agreements for non-key
            personnel in situations where contractor
            personnel were performing in high-risk roles.
            On February 7, 2011, the Assistant Director of
            Contract Oversight, DRR, sent a global email to
            DRR Oversight Managers, reminding them of
            their responsibilities regarding the request,
            receipt, and filing of the confidentiality
            agreements for non-key personnel.

            DRR determined that improvement in DOA’s
            controls have addressed the OIG’s concerns
            regarding confidentiality agreements for
            contractors and key personnel. With respect to
            key personnel, the appropriate procedures for
            tracking and maintaining contractor and key
            personnel confidentiality agreements are the
            responsibility of the Contracting Officer and
            have been implemented. Furthermore, to
            address its responsibilities, DOA hired
            additional personnel which made significant
            improvements to the process of uploading and
            tracking required contract documents in the
            Contract Electronic File.


  a
      Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed corrective action
                     is consistent with the recommendation.
                 (2) Management does not concur with the recommendation, but alternative action meets the intent of the
                     recommendation.
                 (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                     benefits are considered resolved as long as management provides an amount.
  b
      Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
      recommendations, the recommendations can be closed.
  c
      DRR comments indicate that these four recommendations have been implemented, and they will be closed once we
      determine the corrective actions have been completed and are responsive.




                                                             II-14
